<html>
<title> - AFRICA'S GREAT LAKES REGION: A SECURITY, POLITICAL, AND HUMANITARIAN CHALLENGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







 AFRICA'S GREAT LAKES REGION: A SECURITY, POLITICAL, AND HUMANITARIAN 
                               CHALLENGE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-107

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-267 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Linda Thomas-Greenfield, Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     4
The Honorable Thomas Perriello, Special Envoy for the Great Lakes 
  Region of Africa, U.S. Department of State.....................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Linda Thomas-Greenfield: Prepared statement........     7
The Honorable Thomas Perriello: Prepared statement...............    26

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
                      AFRICA'S GREAT LAKES REGION:
                       A SECURITY, POLITICAL, AND
                         HUMANITARIAN CHALLENGE

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and thank 
you to our very highly distinguished witnesses for being here 
and for taking the time to provide your insights and counsel to 
this subcommittee.
    Ladies and gentlemen, to state that the Great Lakes region 
of Africa is troubled would be an understatement. Burundi is 
experiencing continued turmoil due to a recent contentious 
election. The Democratic Republic of the Congo, or DRC, has had 
some level of conflict since the late 1990s. The Lord's 
Resistance Army, also known as the LRA, has plagued several of 
these countries. Alleged plundering of DRC resources by Rwanda 
and Uganda has never been fully resolved. Nations in the region 
have been preoccupied in the last 2 years with resolving the 
South Sudanese Civil War.
    Definitions vary, but the Great Lakes region, as defined by 
the U.S. Department of State, comprises Burundi, DRC, Rwanda, 
and Uganda. The region is among the most densely populated in 
Africa, especially around Lake Victoria, and enjoys rich 
agricultural potential, water resources, minerals, and 
wildlife. However, political instability, conflict, 
humanitarian crises, and lack of development remain key 
challenges.
    These four countries are the purview of the U.S. Special 
Envoy to the Great Lakes, Tom Perriello, who we are delighted 
to have here today, a former Member of the House and a former 
member of the committee I served on for years and that is the 
Veterans Affairs Committee. So Tom, thank you for being here.
    We also have Assistant Secretary of State for African 
Affairs, an expert in the field, Linda Thomas-Greenfield, who 
has spent a great deal of her time in office dealing with the 
Great Lakes and a great deal of time on the road. It has been 
hard to get you up here, but I know, as you said just a moment 
ago, you have been spending 3 weeks out of four on the road and 
that is very commendable on your part to spend so much time 
working on these issues.
    Today's hearing offers an opportunity to hear from these 
top administration officials, not only about continuing U.S. 
efforts to extinguish the LRA threat, but also the 
administration's work with governments in the region on issues 
such as peace building, governance, and adherence to 
internationally recognized human rights and democracy.
    In our subcommittee hearings over the last 3 years, we have 
uncovered numerous troubling situations. Even with the supposed 
end of the operations by M23 militia, an issue in DRC, in late 
2013, there are several other militias still causing 
instability in the region. The Kabila government in the DRC 
reportedly is using a ban on completing foreign adoptions as 
leverage to ward off actions to prevent him from prolonging in 
his rule, despite a constitutional bar to any reelection bid.
    The Burundian President's decision to run for a third term, 
which some Burundians and outside observers viewed as a 
violation of a landmark peace agreement and arguably the 
Constitution of Burundi, has led to a political crisis and 
heightened concerns about regional stability.
    Human rights abuses in Rwanda were found to be targeted 
toward real or perceived political opponents prior to 2012, but 
after 2012, such abuses were seen as more random, expanding the 
targets of the regime. Major Robert Higiro, a retired Rwandan 
military officer, told our subcommittee on May 20th about his 
solicitation by the Rwandan intelligence chief to kill high-
level defectors. He turned against the government and informed 
the targets who asked him to record the offer. He did, and the 
recording was validated by the Globe and Mail in Canada and the 
British Broadcasting Corporation, the BBC. The State Department 
has not only found the allegation to be credible but warned 
Major Higiro to leave Belgium where his life was in danger.
    Although LRA killings have diminished in the past few 
years, kidnappings by the group have risen as it operates in 
smaller, scattered cells using more adults as temporary labor. 
One witness at our hearing last month said an end to the U.S. 
support for the counter-LRA effort would be ``devastating,'' I 
believe the administration will continue that counter-LRA 
effort and that is encouraging.
    We have heard of the difficulties of addressing issues in 
this troubled region of Africa by both governments and private 
witnesses over the last few years, however, the fates of these 
countries are interconnected and our policies need to take that 
into account.
    I would like to yield to Mr. Cicilline for any opening 
comments he might have.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you for 
calling this hearing today and to our distinguished witnesses 
for being here to share your experiences and recommendations 
for U.S. policy toward this region.
    When I think of the Great Lakes region in Africa what so 
often comes to mind is the incredible conflict and suffering 
that the region has experienced in recent decades. The wars in 
Burundi and DRC and genocide in Rwanda unleash true horrors 
upon the population. But despite their troubled past, the 
countries of the Great Lakes region, Burundi, the Democratic 
Republic of the Congo, Rwanda, and Uganda have made some 
progress. Peace accords restored a semblance of stability to 
Burundi and the DRC. Rwanda has become an example in terms of 
economic development of the region. Uganda has experienced 
relative peace and stability.
    I recently visited Rwanda and had the opportunity to see 
some of this progress first-hand; however, there remain great 
challenges to regional stability and for the forward progress 
of these countries. Public health issues, violence against 
women, HIV/AIDS, and food security remain challenges throughout 
the region. Moreover, leaders in Burundi, DRC, and Rwanda have 
indicated reluctance to allow for peaceful transitions of 
power. Burundi President Pierre Nkurunziza's decision to run 
for a third term in contravention of the Arusha Accords is very 
troubling as are indications that the Presidents of the DRC and 
Rwanda may attempt to circumvent term limits in their own 
countries. President Museveni has ruled Uganda since 1986.
    I firmly believe that further economic development of these 
countries and improvements in their health, safety, and food 
security will be directly tied to their acceptance of free and 
fair democratic process.
    I look forward to hearing from our witnesses today as to 
how Congress can encourage these countries to maintain a 
democratic trajectory. And with that, I yield back and thank 
you, Mr. Chairman.
    Mr. Smith. I would like to yield to Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for 
continuing to make humanitarian relief a focus of this 
subcommittee on a regular basis and for me, it is very 
gratifying to have both of you here to testify today. We look 
forward to hearing not only your expert testimony, but how we 
can go beyond a hearing and make an impact in countries that 
most Americans would have a hard time finding on a map.
    We see the devastation. We hear the stories, but they are 
headlines and they are far away. And we need to do a better job 
as Members of Congress, but we also need to do a better job of 
highlighting those areas where we can make a difference. So I 
look forward to hearing from both of you on perhaps two things 
that we are doing well, but two things that we need drastic 
improvement on and that way we can have actionable items. And 
with that, I will yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows. I would like 
to introduce our two distinguished witnesses, beginning first 
with Ambassador Linda Thomas-Greenfield, a member of the career 
Foreign Service who was sworn in on August 6, 2013 as the 
Assistant Secretary for African Affairs. Prior to assuming her 
current position, she led a team of about 400 employees who 
carried out personnel functions for the State Department's 
70,000 strong work force.
    Since beginning her Foreign Service career in 1982, I note 
parenthetically, a year after I came to Congress, she has risen 
through the ranks to the Minister Counselor level, serving in 
Jamaica, Nigeria, The Gambia, Kenya, Pakistan, and at the U.S. 
Mission to the United Nations, and most recently as Ambassador 
to Liberia where she served from 2008 to 2012.
    Then we will hear from the Honorable Thomas Perriello, 
Special Envoy for the Great Lakes Region of Africa. He 
previously served as Special Representative for the Quadrennial 
Diplomacy and Development Review and also served as a 
Congressman from Virginia. And I would note also that he served 
on the House Committee on Veterans' Affairs and I thank him for 
that service. I served on that committee as well. He was also a 
Special Advisor to the Prosecutor of the Special Court for 
Sierra Leone, an extremely effective court that was led by 
David Crane, as we all know, and ultimately secured a major 
conviction and that was of Charles Taylor, who got 50 years for 
the atrocities that he unleashed upon the people in Sierra 
Leone and Liberia.
    He has also served as CEO of the Center for American 
Progress Action. He has worked and conducted research in a 
dozen countries and taught courses on transitional justice at 
the University of Virginia's School of Law and the University 
of Sierra Leone.
    Outside of government, Mr. Perriello has co-founded and 
managed justice entrepreneurship platforms and faith-based 
organizations advancing human rights, poverty reduction, and 
sustainability.
    Madam Ambassador, the floor is yours.

 STATEMENT OF THE HONORABLE LINDA THOMAS-GREENFIELD, ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Thomas-Greenfield. Thank you very much, Chairman 
Smith and thanks to the other members of the subcommittee for 
the opportunity to testify today on the many challenges facing 
the central African region. I am honored to testify here today 
with Special Envoy to the Great Lakes Region of Africa, Tom 
Perriello, one of your former colleagues.
    The Department and the Bureau of African Affairs, in 
particular, greatly appreciates the bipartisan support we 
continue to receive for our work, for our Embassies, and for 
our people who spend every single day striving to promote our 
national security, foreign policy, and economic interests on 
the continent of Africa.
    In the central African region, particularly in the 
countries of Rwanda, Burundi, the Democratic Republic of the 
Congo (DRC), the Republic of Congo, our efforts to strengthen 
democratic institutions, spur economic growth, advance peace 
and security, and promote opportunity and development have 
borne fruit. However, the progress made in this region is 
fragile and it is at great risk, as you both described in your 
remarks. In fact, this is the region that I am most concerned 
about as it is way out of step of the progression that the rest 
of continent is making.
    I know that you are interested in our continuing efforts to 
combat the Lord's Resistance Army, also known as the LRA, and I 
am pleased to report that we actually have had some good 
success there, in fact, great success working through our 
regional partners, notably Uganda and the African Union. The 
Central African Republic, despite intense conflicts in that 
country, the Democratic Republic of the Congo with its 
political issues, South Sudan at war with itself, all have 
actively provided assistance to us in countering the LRA. Over 
270 people have either defected, escaped, or been released 
since 2012. Four of the five top commanders are in The Hague. 
The number of people killed by the LRA has dropped by 90 
percent since 2010 when 365 were killed and we have had 19 
killed since June 30, 2015. Even that is too many, but it is a 
significant decrease.
    These numbers make it clear that our strategy is working, 
but Joseph Kony is still commanding the remnants of the LRA and 
until he is brought to justice we remain committed to finishing 
the work that we have started.
    President Obama's July speech to the African Union in Addis 
Ababa where he addressed the critical issue of democratic 
transition including term limits, respect for constitutions, 
and the peaceful transfer of leadership, has resonated 
resoundingly on the continent. The core principles the 
President elaborated are the cornerstone of our engagement with 
leaders whose time in office should be coming to an end. And 
note that I said ``should.'' Over the next 2 years, each of the 
countries in this region has faced or will face the opportunity 
to realize a true democratic transfer of power. Yet, in each of 
these countries, that agreed-upon process is in doubt. The 
leaders of these nations have been making fateful decisions 
whether or not to abide by their previous commitments, respect 
the rule of law and their constitutions, and responsibly build 
a foundation of peaceful, elected, democratic leadership and 
transition.
    In Burundi, President Nkurunziza's pursuit of a third term 
caused the current volatile political crisis. Prevailing 
circumstances have forced over 200,000 Burundians to flee into 
neighboring countries since April and many of those attempting 
to flee have reported violent confrontations by party militias 
and police. Special Envoy Perriello just returned from the 
region and will provide more context on our current efforts 
there.
    While the Republic of Congo is outside our definition of 
the Great Lakes region, it impacts it and is affected by 
similar situations as elsewhere in the region. President Sassou 
Nguesso's decision to call for a popular referendum on a 
proposed new constitution is deeply troubling and has created a 
volatile situation that could spiral beyond the government's 
control with tragic results. And as I speak today, the current 
situation in the country is very, very tense.
    I now turn to circumstances across the Congo River in the 
Democratic Republic of the Congo. Before I get into the 
electoral and security situations I would like to assure you, 
the Members of Congress, and any of your constituents who are 
anxiously waiting to bring their adopted children home, that we 
remain closely engaged with DRC officials at the highest levels 
to lift the ban on exit permits for the hundreds of legally-
adopted children who are unable to join their new families and 
we will not cease in our efforts until all of these cases are 
resolved.
    On the political front, we remain deeply concerned by the 
situation in DRC. President Kabila's final term is due to end 
in December 2016. Efforts by the President to amend the 
constitution or guarantee electoral delays have been vigorously 
resisted, even by some of his own majority in the DRC 
Parliament and certainly by his citizens. Tom has also just 
concluded a visit from that country and he will go into more 
details on our analysis and our approach to the situation, but 
I must note that at this time I don't see that DRC is yet at a 
precipice. President Kabila faces a choice. He can establish a 
tradition of peaceful transition of power for his country or he 
can set back the significant progress that he himself has made 
during his tenure by trying to stay in office beyond his term.
    Finally, on Rwanda, the United States has been a strong 
partner with Rwanda. While it has been making significant and 
commendable strides in spurring economic growth and promoting 
development following the devastating 1994 genocide, we 
continue to encourage Rwanda to demonstrate significantly 
greater respect for human rights and democratic principles. 
Thus, I have to admit we were very disappointed when the 
Rwandan Government established a constitutional reform 
commission that has recommended removing executive term limits 
that would permit President Kagame to seek a third term in 2017 
and we have urged him against this.
    Chairman Smith and members of the subcommittee, I want to 
thank you again for holding this hearing and giving us the 
opportunity to discuss our extensive engagement in the region. 
I hope that the information that we share with you today, as 
well as with the audience here, is helpful. I look forward to 
answering all of your questions as I know Tom will.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Mr. Smith. Madam Ambassador, thank you very, very much.
    I would like to now yield the floor to Special Envoy 
Perriello.

STATEMENT OF THE HONORABLE THOMAS PERRIELLO, SPECIAL ENVOY FOR 
   THE GREAT LAKES REGION OF AFRICA, U.S. DEPARTMENT OF STATE

    Mr. Perriello. Chairman Smith, and members of the 
subcommittee, thank you so much for the invitation to testify 
today and for your unwavering interest in the comprehensive 
efforts to support peace, democracy, and development in the 
Great Lakes region. I am honored to be back on Capitol Hill to 
have this opportunity to serve and to get to testify here today 
with one of the true all-stars of the foreign service, 
Assistant Secretary Linda Thomas-Greenfield.
    As she outlined, we greatly appreciate the broad support 
from Capitol Hill for our engagement, our values, our programs 
and our Embassies in the region. After decades of instability, 
and of international investment in peace, the next 2 years will 
determine much about the future of the Great Lakes region. The 
run-up to elections in the Republic of Congo, the DRC, Rwanda, 
and Uganda, and the ensuing crisis from Burundi's discredited 
elections, will determine much about whether the region will 
reap the benefits of decades of investments in security and 
democracy or rather trade in that hard-fought progress for the 
entrenchment of individual leaders. It is for this reason that 
I am focusing my testimony today on these upcoming elections 
and our efforts to support them, although I will be more than 
happy to answer questions on other issues afterwards.
    The crisis in Burundi is a prime example of what happens 
when an individual clings to power at the expense of his 
country. President Nkurunziza's decision to stand for a third 
term and violate the Arusha agreement has triggered a complex 
and dire crisis. Months of government repression, a failed coup 
attempt, discredited elections, tit-for-tat assassinations, and 
a mounting humanitarian crisis leave Burundi facing a shorter 
and shorter fuse.
    Open political space has been all but eliminated in 
Burundi, creating an environment of intimidation and fear where 
daily violence and assassinations have become the norm. Much of 
the violence is reportedly carried out at the hands of state 
security services in the Imbonerakure, the armed wing of the 
ruling party's youth militia, but also by groups aligned with 
different political parties acting in retaliation. Their 
actions risk an expanded civil war as well as state failure.
    While Burundi's past conflicts have been marked by horrific 
ethnic massacres, the current crisis has thus far avoided this 
element. However, we worry with continued instability the risk 
for the conflict to take on an ethnic component grows. Perhaps 
most pressing, Burundi's economy is in free fall which will 
continue to exacerbate the suffering of the Burundian people, 
already among the world's poorest, many of whom suffered from 
malnutrition even before the crisis.
    We generally support regional leadership in resolving 
conflicts. However, certain regional dynamics in this case are 
impeding progress. Those in the region interested in testing 
their own country's term limit provisions are watching Burundi 
out of their own self-interest. Those supporting Nkurunziza 
also argue that our focus on term limits comes at the expense 
of stability. But the facts prove quite the opposite. Regular, 
democratic transitions of power are in the best interests of a 
country's stability. No credible observer thinks Burundi would 
not be better off if Nkurunziza had allowed constitutional 
elections to proceed. The international community would be 
talking about targeted investments, not targeted sanctions. We 
would be talking about Burundi as a model, not as a cautionary 
tale.
    There are also broader geopolitical dynamics in play here. 
Some countries side with Burundi's Government because they 
believe the instability is being driven not by legitimate 
discontent by Burundians, but by Rwanda's support for the 
opposition. This is reviving historic geopolitical fault lines 
and risks holding back regional consensus on next steps to 
resolve the crisis. We encourage Rwanda, Tanzania, and all 
neighboring countries to be a force for peaceful resolution.
    We believe that an inclusive, immediate, and 
internationally-mediated dialogue amongst Burundian 
stakeholders under EAC and AU leadership is the best route to 
resolve this crisis. We were heartened to see strong leadership 
and consensus at the African Union last weekend when the Peace 
and Security Council called for the resumption of an inclusive 
dialogue to be held outside of the country under the 
facilitation of President Museveni. We support the AU's 
leadership in demanding more urgent progress toward dialogue 
and consequences for those who impede it.
    Regarding our next steps, we are pursuing all available 
diplomatic tools to convince Burundian stakeholders, the 
region, and the international community to support the 
immediate resumption of dialogue. We have already significantly 
curtailed our security assistance to the Burundian Government 
and all remaining non-lifesaving U.S. assistance is being 
reviewed. While we strongly support the peacekeeping missions 
in Somalia and the Central African Republic, our ongoing 
support for Burundi's participation could be suspended if the 
government continues on its current path.
    We are reviewing options for holding individuals 
accountable for acts of violence and human rights abuses. In 
this effort, we support the AU's call for sanctions and the 
EU's recent decision to impose targeted sanctions to hold 
accountable those whose actions they determined have led to 
acts of unlawful violence and serious human rights abuses.
    Lastly, the interagency is working with the White House on 
contingency planning for the possibility of more widespread 
violence in Burundi. We laud the AU for also pursuing such 
planning and we will support efforts to prevent mass 
atrocities.
    Whereas Burundi has already made a costly decision to 
pursue a dangerous path, the leadership of the DRC still faces 
a choice, a crossroads, with its Presidential elections 
currently scheduled for November 2016. Good elections would 
bolster the DRC's democratic development and be a critical step 
in addressing governance issues that have been a fundamental 
aspect of decades of instability. On the other hand, a delayed 
or illegitimate election could set off a far greater crisis 
than we have seen in Burundi. The DRC Constitution states 
unambiguously that a President may serve only two consecutive 
terms in office and this provision cannot be amended.
    The government's attempts to change the electoral process 
in a way that could extend President Kabila's tenure have been 
staunchly rejected by the population, many of the President's 
own political supporters, their Parliament, and civil society. 
There are technical challenges that must be addressed if 
national elections are to be held on time. The current bloated 
electoral calendar is already off track. The voting rolls have 
not been updated since the last elections and the Independent 
National Electoral Commission or CENI recently became 
leaderless with the resignation of its President, Abbe Malu 
Malu.
    Beyond the timing and logistics of elections, the most 
concerning trend in the DRC is the alarming escalation of 
political repression and the closing of political space. 
Disturbing reports of extrajudicial killings, use of excessive 
force against demonstrators, and trumped up convictions of 
civil society leaders are all of serious concern.
    The challenges outlined above are not insurmountable, but a 
2016 election will require Congolese political leaders to 
quickly reach consensus on next steps. First, the DRC needs to 
revise a realistic electoral calendar which prioritizes 
Presidential and parliamentary elections next year and 
consolidates multiple rounds of voting.
    Second, the DRC Government and the CENI should agree upon a 
budget and the government should disburse the necessary funds. 
Third, the CENI should green light a process for updating 
existing voter rolls. Fourth, candidates, parties, and 
government officials should all make a pledge for nonviolence. 
Fifth, the DRC Government should resume cooperation with 
MONUSCO to ensure proper security, given the acute risk of 
instability and violence during the election period.
    We will continue to engage the DRC Government, CENI, 
opposition parties, and civil society to support the upcoming 
elections and to maintain and reopen political space. We will 
also continue to work with our donor partners on public 
engagement and electoral support. Our goal is simple: Let the 
voice of the Congolese people shape their country's bright 
future.
    Finally, Rwanda's elections are not until 2017, but the 
Rwandan Government is already taking steps to enable President 
Kagame to remain in office beyond current constitutional term 
limits. While we respect the ability of any Parliament to pass 
legislation that reflects the will of the people, we continue 
to firmly support the principle of democratic transition of 
power in all countries and respect for existing constitutional 
term limit provisions. We do not support incumbents amending 
constitutions to stay in power as doing so undermines 
democratic institutions and is an ingredient for instability.
    The fate of democracy in Rwanda is about more than just the 
next election. Political freedoms continue to be limited, 
creating an environment where open debate and disagreements 
about security and political issues are rarely seen. Respect 
for human rights is a pillar of democracy and credible 
elections.
    Let me conclude these introductory remarks with a few 
general takeaways. First, countries in the region are watching 
closely what happens in Burundi and the Republic of Congo with 
their own elections in mind. Second, there must be consequences 
when leaders deliberately exchange their country's stability 
for their own hold on power. Sanctions and cuts to assistance 
as targeted as possible must be part of this equation. Third, 
courageous citizens across the region take great personal risk 
each day to defend fundamental freedoms and a future many of us 
take for granted, the Pierre Clavers, the Yves, the Freds. The 
future of the region will be forged by those who stand for a 
democratic future, but our policy can reinforce and protect 
their efforts. Fourth, high-level U.S. and international 
engagement will be pivotal between now and 2017 as the region 
is watching how donors respond to actions in the region.
    Despite the worrying signs across the region, I want to end 
on a positive note. There is still a window for all Burundian 
stakeholders to come together in a dialogue before this 
escalates to war. There is time for the DRC to organize 
credible and historic elections to see the first peaceful 
democratic transition and for Rwanda's story to be one of great 
economic growth and democratization. But time is of the 
essence, as is strong bipartisan U.S. leadership. Thank you 
very much.
    [The prepared statement of Mr. Perriello follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Without objection your full statement will be 
made a part of the record as well as yours, Madam Ambassador.
    Let me just ask a few opening questions. First of all, we 
did have a hearing on the LRA on September 30 and there was a 
consensus among our witnesses that not only elimination, but 
even a limitation on the current U.S. deployment could be 
catastrophic. And I just hope you can reassure us that that is 
not in the offing. And you point out and the evidence is very 
clear, there has been a 90 percent decrease in killings, a 30 
percent decrease in attacks by the LRA since deployment in 
2011. And yet, there has been, not an increase, but a troubling 
number of abductions, particularly of Congolese that have 
occurred over the last 4 years, 417 was the number that was 
cited to us.
    And I am just wondering, one of the things that came out of 
that hearing as well was the importance of U.S. leadership, the 
Ugandans, and the others who have very capable troops deployed 
as to how it really--that could all fall apart, too, without 
the U.S. command and control and some of the other 
counterinsurgency expertise that is brought to bear. So if you 
could just speak to that and how important that deployment has 
been and hopefully will continue. How well the other nations 
have stood-up troops because again, we don't want those troops 
to go away, we want them to stay focused until Kony is brought 
to justice as well as those who have committed atrocities.
    Ambassador Thomas-Greenfield. Let me just say that we are 
very proud of what we have achieved so far. Again, we don't 
want to sit on our hands and pat ourselves on the back yet 
because Kony is still out there. And as long as Kony is still 
out there, we remain committed to working with governments in 
the region to address this issue. We believe that our 
comprehensive strategy incorporating military and civilian 
efforts are helping the regional governments make significant 
progress to degrade the LRA's capabilities and reduce the 
threat that they pose to the communities around them.
    And I want to note that we conduct regular interagency 
reviews to ensure that this effort is making sufficient 
progress. Our most recent review concluded that it continues to 
do so. So we will continue to remain committed to this effort. 
I have had several meetings with President Museveni over the 
past few months and raised this issue with him and got his 
commitment that he was willing to stay the course until Kony 
was captured. And so I think we are in a good place.
    Mr. Smith. On the issue of adoption, we held a hearing on 
July 16th with a focus on African adoptions in general and the 
DRC in particular. And the concern expressed by parents and 
families who actually know their children, but can't get that 
permit to allow them to leave the country. Peter Pham of the 
Atlantic Council who has appeared before our subcommittee many 
times, recently wrote an op-ed accusing Kabila of blocking the 
departure to the United States of legally-adopted children as a 
form of blackmail against pressure to follow the constitution.
    If you could just provide further insight as to what is 
causing--the factors that are causing the ability of these 
children to find that loving home that just awaits them and 
whether or not Dr. Pham is raising a legitimate point with 
regards to the reason, or one of the reasons, why Kabila is 
dragging his feet?
    Ambassador Thomas-Greenfield. I don't know that I could 
speak for the motives of President Kabila and the Government of 
the DRC, but I do want to say that we have put undue pressure 
on the government to relinquish these children and to allow 
them to exit the country. President Obama called President 
Kabila to urge him to action. Secretary Kerry has pressed 
Kabila to resolve this matter. We have had the Assistant 
Secretary for Consular Affairs travel to the DRC in March. In 
August, we had one of my deputies, Stu Symington, also engage 
with the government when he was there. Dr. Jill Biden sent a 
letter to President Kabila and to his sister to encourage him. 
Special Envoy Perriello has visited and he raised this issue.
    And during the U.N. General Assembly last month in New 
York, both of us met with the government, with the Foreign 
Minister and we put this first on our agenda, which surprised 
him, that this was at the top of our agenda. We had a meeting 
for probably 1\1/2\ hours and the top subject, more than 30 
minutes, was on adoption issues. What we are hearing from the 
government, and we continue to hear from the government is soon 
they are going to make a decision. Soon has not come soon 
enough for the families.
    Mr. Smith. Sure. What are the reasons? And I know some of 
the kids actually passed away from illnesses that could have 
been mitigated and probably eliminated.
    Ambassador Thomas-Greenfield. Part of the reason again, and 
I don't want to speak for the Government of the DRC, but they 
have argued that some of the adoptions were not done legally 
and because of that they want to investigate and ensure that 
legal procedures are used in the future. We are good with that, 
but most of these cases, in fact, probably the majority, if not 
all of our cases, were done in a legal manner and we are just 
asking that the government to release these children. They are 
still approving new cases which is a real problem for us 
because then it is causing more families to go through the 
anguish that they are going through. And many of those families 
are living in the DRC with their children, taking care of their 
children so that they can ensure their health and well-being.
    Mr. Smith. But the ongoing approvals would suggest that it 
is a delay, not a stoppage.
    Ambassador Thomas-Greenfield. That is my hope and prayer, 
but it is still taking way too long.
    Mr. Smith. Let me just ask you with regards to Burundi, on 
July 2, obviously, the administration and State Department 
announced the suspension of several security assistance 
programs. What conditions must be met by the Burundian 
Government in order for the U.S. Government to resume the 
security aid? And are there other sanctions potentially being 
contemplated now?
    Ambassador Thomas-Greenfield. Right now, what we are 
pushing the government to do is start a dialogue, an inclusive 
dialogue led by the Ugandan Government through the EAC. That 
would be the first step, but I think we have to wait and see 
what the results of that dialogue are before we get into any 
discussions with the government on next steps of resuming a 
normal relationship with this government.
    Tom, you might want to follow up.
    Mr. Perriello. Sure. So a number of different programs have 
been suspended for a number of different reasons including 
security conditions on the ground, some of the multilateral 
lending institutions in the EU and others also have suspended 
based on everything from failure to meet the most basic 
transparency corruption standards, as well as obviously human 
rights and other concerns. The government, I think, would be 
mistaken to believe that they are within a step or two of such 
programs resuming, but the biggest step that could be taken as 
the Assistant Secretary mentioned would be the resumption of 
the dialogue and the moving toward again stability, as well as 
meeting that range of standards. And we are continuing to look 
at the full range of options that are available in terms of 
programs that are ongoing as well as looking at the leadership 
of the African Union and the European Union have taken, and 
holding people accountable, not just on the government side, 
but anyone also who is resorting to force or violence on the 
opposition side.
    Mr. Smith. Let me just ask you, when Rwandan Major Robert 
Higiro testified, we had vetted him very, very carefully and I 
know we asked the State Department to review his evidence which 
seemed very compelling. And my understanding is very clearly 
you found it to be credible. How has that affected our 
relationship with Rwanda? Have we raised it? What has the 
response been to these extrajudicial killings or the 
allegations of such? How do they respond to this?
    Ambassador Thomas-Greenfield. This is an ongoing subject 
with the Rwandan Government at every level. When we have had 
congressional delegations go out like Senator Coons who was out 
there a few weeks ago, in all of our engagements with the 
Rwandan Government, with the President, we have raised our 
concerns about human rights violations, about reports and 
allegations of extrajudicial killings, about disappearances. 
And they have denied their involvement in all of these cases. 
But we have been clear in our messaging that this will have a 
real deep impact on our future engagement with the Rwandans. 
They are doing some wonderful things on the economic and social 
front. They are making progress on the Millennium Development 
Goals (MDGs) like no other country. That is an amazing legacy 
that will be destroyed if on the political and human rights 
side they don't----
    Mr. Smith. I would suggest that legacy and I know Rick 
Warren has been very clear about this that it is only because--
there is government commitment, no doubt. But it is the faith-
based organizations that have made all the difference in the 
world. And I know, Tom, you might want to speak to that as 
well, that it has a multiplier effect. I mean Rick Warren 
recently brought a map and said here is where some of the 
government stations are for health and the like. Here is a map 
with stars or flags where there are faith-based communities 
that can take these challenges on and truly get it to the 
people. So I would encourage you to continue utilizing the 
faith-based community to the nth degree because I think the 
multiplier effect has no equal.
    Mr. Perriello. Sure, just to echo what the Assistant 
Secretary said, not just in Rwanda, but throughout the region 
we have emphasized several points, one of which is that fair 
elections don't just happen on election day. It is about the 
environment that is created in the months and the year ahead of 
an election. Is there open political space where dissent is 
welcomed, where assembly and press are welcomed? And we have 
seen in Rwanda, in DRC, in Burundi, obviously, past the 
breaking point that that political space is closing.
    We have seen faith-based organizations play a tremendously 
positive role in all three of those countries including Rwanda 
and there has been an effort by leaders in multiple countries 
to say anyone critical of a government is immediately an 
opposition party member and this distinction between civil 
society organizations who are independent of political parties, 
but raising concerns about human rights, press freedoms, and 
other issues, as well in the Burundi case, of seeing anyone who 
is critical as being a putschist or a coup plotter. This is not 
what happens in stable democratic societies. All of us have 
faced more than a little dissent in criticism from political 
opponents and we have to understand that that is part of a 
healthy democracy. So we continue to raise that, not just for 
the Government of Rwanda, but governments throughout the 
region.
    Mr. Smith. I would say I am not sure we all welcome the 
opposition, but we certainly know that it is part of the system 
and it is an important part of it.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses. Each of the countries that are the subject of this 
hearing face critical moments in terms of political transition. 
I just wonder if you would share with the committee what you 
think we might be able to do to encourage this democratic 
transition that seems to be up for consideration in each of 
these three countries and how we might use whatever tools are 
available to us to really encourage and persuade the leadership 
in these countries about the impact that that kind of peaceful 
transition has on the long-term security and prosperity of 
their country?
    Ambassador Thomas-Greenfield. I think the most important 
thing that we can do is to be consistent in our messaging. It 
has to come from every source within the U.S. Government. If we 
from the State Department are going out to meet with these 
governments, if members of other agencies are going out to meet 
with these governments, Members of Congress are going out, they 
have to hear to same message from all of us that we support 
democracy, we support stability, and we support countries 
honoring their constitutions and not changing their 
constitutions to benefit the incumbent who is in power. These 
countries are hearing these messages.
    I like to refer to the fact that we have actually had some 
success. The one success we have had is that all of these 
countries have bought into the legitimacy of elections because 
in the past they didn't have elections. They would just declare 
themselves President for life and people would have to live 
with it. It is a small glimmer there, but the fact that 
elections provide legitimacy is an important thing and now we 
have to work to improve those elections, improve the ability of 
people in these countries to participate in elections and prove 
the ability of civil society to have a voice and then we will 
end up with examples like Nigeria. And I know we are not here 
to discuss Nigeria where civil society was a key player in that 
election, where capacity building was a key element in having a 
successful, democratic election that led to a peaceful 
transition.
    Mr. Perriello. Let me just offer a few things. One, I think 
to something Congressman Meadows said at the beginning. One of 
our biggest enemies here is apathy. And I think as we raise 
awareness, whether that is from the perch you have here or 
visiting the region, this is not something that has got the 
world's spotlight. There are so many crises around the world. 
The people of the region have struggled for a long time and 
forged a path forward and I think they deserve the world's 
attention. So I think that is one positive thing.
    Second is while it is important for all of us as has been 
pointed out to call out backsliding in the region or closing of 
political space, there is also a lot positive to be said here. 
Everybody knows that this is a region with unbelievable 
potential, not just because of its mineral wealth, but because 
it does have strong leadership in civil society. It has really 
developed some of the institutions. Some are nascent of strong 
democracies. There are heroes who are risking their lives every 
day to defend basic freedoms and so I think we have a positive 
story to tell.
    Third is continuing to be strong partners to the African 
Union as well as the European Union in these efforts. The 
African Union took quite bold leadership last week in its 
communique about Burundi and I think where they are willing to 
show leadership in the region across the continent, it is 
important for us to be there.
    The last thing I just want to say is a shout out to 
supporting our Embassies there and particularly in Burundi that 
has been under difficult circumstances with security risks and 
drawdowns, a lot of long hours. When I go out and visit, they 
always welcome me even though I know it is exhausting for them 
to have visitors. And so continuing to be supportive of our 
folks that are out there under difficult circumstances.
    Mr. Cicilline. Thank you. And this spring, MONUSCO helped 
facilitate the release of 431 child soldiers from rebel groups 
in eastern Congo and the U.N. is currently working to help 
reintegrate these children back into society. Can you speak a 
little bit to how the United States is supporting efforts to 
disarm, demobilize, and reintegrate former combatants in the 
Congo, particularly as it pertains to children?
    Ambassador Thomas-Greenfield. That is one of our highest 
priorities in terms of working with governments on disarmament 
and demobilization. And USAID has a very robust program in DRC 
working in this area. I don't have the exact details. You were 
just out there. You may have more at hand. But it is something 
that we work very, very closely with MONUSCO on. We also are 
supporting UNICEF's efforts to help integrate these children 
back into their communities.
    Mr. Perriello. Yes, I just happened to be out at a project 
in Bukavu not long ago, just last week, it all bleeds together 
now, but it was an inspiring project, a local organization that 
had some support from both USAID and Eastern Congo Initiative 
that was working with both former child combatants, and also 
young women who had been in sexual slavery or otherwise put at 
risk. And it was skills training. And one of the things that 
people have learned over the years partly with support from our 
development organizations is it is not enough just to give the 
training. There has to be a demand side at the other end, an 
organization ready to hire them or some ability to allow them 
to start their own entrepreneurship operation. So this is 
incredibly important. It was something we certainly saw back 
when I was living in Sierra Leone as well, finding economic 
opportunities, but also community and support networks, 
psychosocial counseling, etcetera. So the United States, along 
with many other independent organizations, are doing great work 
on that, but I think it is also a reminder as we look at how 
crucial this democratic transition is that there continue to be 
elements that could become very problematic if the country 
started to backslide. And that is one of the reasons we have to 
stay so focused on the stability element as well.
    Mr. Cicilline. And finally, as you know, Uganda's 
Constitutional Court overturned their anti-homosexuality law. 
That was last year, but of course, we know that that doesn't 
end homophobic or anti-LGBT activities. So what is the current 
status of attempts to legalize homophobia and violence in 
Uganda? What do you think is the prospect that that issue will 
be raised again and is it a sentiment that is being reflected 
in other parts of the region that we should be aware of?
    Ambassador Thomas-Greenfield. We were very pleased when the 
Constitutional Court made the decision to not move forward with 
this bill and we have since heard from Ugandan authorities that 
they have no intention of presenting this bill back to their 
Parliament. That said, it always could happen again. We 
continue to support the LGBT community in Uganda, to encourage 
respect for their human rights. Human rights are enshrined in 
the Ugandan Constitution and so we constantly remind them that 
respect of the human rights of all Ugandans regardless of their 
sexual orientation or gender identity is critical to the 
country's success and moving forward in democracy. And I 
actually see this, at least up to this point, as a success 
story.
    The LGBT community in Uganda have told us that they are 
seeing more support from the police. They feel much more 
confidence in the chief of police and they think his leadership 
has been part of building their confidence in the community. So 
we will continue to work this effort. It is not over. This 
doesn't change hearts and minds. There is still a huge, huge 
community of people who will express their views in ways that 
are unacceptable and what we want to do is encourage the 
government to hold them accountable, but also to protect the 
human rights of all of their citizens.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman. Thank 
you.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you each of you 
for your testimony here today. I want to refocus on consistency 
of message and by addressing consistency of message, this is 
not meant to be reflective of either of you because you have 
great resumes and great credentials. But throughout 
administrations, whether it is Democratic or Republican 
administrations, the consistency of message has not been 
something that the African communities, whether it is in these 
four countries or others, have been able to count on. And it is 
very troubling to me as a Member of Congress that when you go 
abroad, and specifically to Africa, the continent of Africa and 
meet with leaders, the inconsistency of us following through on 
what we promise is a reoccurring theme.
    How can we address that to make sure that we are not saying 
that we are making progress or making promises, only to find 
out that part of our diplomatic and potentially political 
influence in those regions are affected by our inability to 
keep our word?
    Ambassador Thomas-Greenfield. Thank you for that question. 
I usually have someone walking behind me taking notes on 
promises that I make and they usually will nudge me.
    Mr. Meadows. Can we borrow some of those?
    Ambassador Thomas-Greenfield. They will nudge me not to 
make promises because if I make promises, we feel that we are 
committed to following through on those promises.
    What you are saying I hear regularly from African leaders. 
I hear regularly that we have promised to support them in 
certain areas and we have not followed up. On the other side of 
that coin I hear from advocacy groups that we make promises to 
hold people accountable and we don't always follow through in 
holding them accountable and so that is on my shoulders to 
ensure that on both sides.
    Mr. Meadows. So if that is the case and I think that both 
of those statements are probably accurate and there are times 
when the countries do not do what they say they were going to 
do. How do we just turn a blind eye to that and assume that we 
are going to hit a reset button and then it somehow 
miraculously is going to fix itself without identifying the 
issue and trying to address it? And specifically, all we can do 
is control what we do. You have the person that follows you 
around. So how do we do that that we let them know that we mean 
what we say, that we are going to follow through, whether it is 
accountability or funding or support in a particular area?
    Ambassador Thomas-Greenfield. I am going to be honest and 
frank. It is hard. And the reason it is hard is because we 
don't always have control over the resources and the resources 
are constantly a moving target. So there is a lot of 
manipulation of resources so that you can honor a commitment 
here which means you might not be fulfilling the commitment 
here because you have moved resources from here to honor the 
commitments that you have made on this side of the ledger book. 
And that is part of not having full control over the resources.
    Mr. Meadows. You mean you specifically? Because it is a 
State Department budget.
    Ambassador Thomas-Greenfield. The State Department 
specifically, but I would say me more broadly within my own 
small world, not actually having control over those resources. 
So I say on a regular basis that my highest priority is 
democracy and governance to really support governments building 
capacity and electoral commissions and the capacity of civil 
society so that they can work to promote better democracy. But 
if you look at the pie chart, democracy and governance is the 
thinnest slice of the pie.
    Mr. Meadows. Right.
    Ambassador Thomas-Greenfield. And so I will make 
commitments. There are elections all over the continent of 
Africa and everybody is asking for us to please send an 
observation team--send NDI, send IRI out to us, send the Carter 
Center out to us. And I am always nodding, I am going to do my 
best. And they take it as a commitment. And literally sometimes 
it is a matter of moving a commitment from somewhere else that 
may not be urgent at the moment and moving it over here to the 
urgent and then finding a way to deal with this when it becomes 
urgent. So that is part of the problem.
    Mr. Meadows. Well, here is what I would offer and I will 
close with this offer and then one more question. As a Member 
of Congress, where we talk about apathy, it doesn't get me 
votes to be for foreign aid in Africa generally in North 
Carolina. I am willing to invest the political capital. I have 
invested the political capital. I am willing to work with the 
chairman and the ranking member because this is something that 
is near and dear to my heart and I am willing to do that.
    If it means expanding some of those resources from other 
areas within the State Department where we can, as you put it, 
I think stay focused, I am willing to do that, but we need to 
know how we can best do that in a bipartisan manner. I am 
willing to ask the tough questions. I know that may come as a 
surprise, but I am willing to ask the tough questions to do 
that. But we have to do a better job of--and again, this is not 
directed at the two of you. We have to do a better job as a 
nation of saying what we are willing to do, following through 
on that so that they know that they can count on the word of 
the American people.
    Now let me digress to one other area that you have already 
touched on and that has to do with the adoption of these 
children. Let me be perfectly clear for anybody that is here 
that is watching, this needs to go back. Enough is enough. We 
have to solve this problem. I am tired of coming to hearing 
after hearing after hearing and saying it is a high priority, 
it is our top priority, we are making progress where you got 
parents that don't believe we are making progress. And that 
message needs to be taken back. It will have financial 
ramifications and I am willing to stake my reputation on that. 
So if you will take that message back and I will yield back, 
Mr. Chairman.
    Ambassador Thomas-Greenfield. And I appreciate that message 
from you. When Tom and I were meeting with the Foreign Minister 
and we started on the subject and he said I can't believe you 
are going to start with this subject and I said I am going to 
be asked about this by our Congress. And I have to say that I 
started with this subject and got an answer from you. So your 
message has been heard.
    Mr. Meadows. Well, tell him that we are going to look for 
answers, not that we are working on it. Delay is one of those 
things that everybody says we are working on it and the time is 
now for answers.
    Ms. Bass. Well, Ambassador Perriello, your former 
colleague, Adam Schiff, sends his regards and actually is going 
to call you on that exact subject because he has constituents 
who have been trying to adopt from the DRC for quite a while. 
So I told him that I would relay that message to you.
    Thank you both for coming and your time today. I might ask 
you a few questions that have already been asked since I came a 
little late, so forgive me if that is the case. But I wanted to 
first start by talking about Burundi and I know you gave an 
update on that, Madam Assistant Secretary, but I was just 
wondering what at this point do you think is our leverage in 
Burundi? And I know that the AU has certainly stepped up and I 
also know that we have suspended some assistance to Burundi, 
but do you think it is having an impact?
    Ambassador Thomas-Greenfield. Can I turn to my colleague to 
answer that?
    Ms. Bass. Sure.
    Ambassador Thomas-Greenfield. He will give a better answer 
than I did.
    Mr. Perriello. I will try. First of all, please tell 
Congressman Schiff that I said hello. And I want you to know 
that I have a picture of one of the kids on my desk in the 
office.
    Ms. Bass. That is good.
    Mr. Perriello. And I have met with the families and one of 
the first things Linda and I talked about is this is not 
technically in my docket, but they made clear this is an all 
team, all hands on deck effort. So all of us are participating 
in this. It boggles the mind that we are where we are and I 
have communicated to President Kabila directly that this is the 
number one thing I hear about from my former colleagues because 
that happens to be true as the message from Congressman Schiff 
indicates.
    On the leverage with Burundi I think there are two----
    Ms. Bass. I am sorry, before you go on to that, what do you 
think is the real hold up?
    Mr. Perriello. As Assistant Secretary Thomas-Greenfield 
said earlier, it is really difficult to know. While some people 
have posited that this is an effort to get a demand on this or 
that thing, it certainly has never been raised. We have gotten 
clear indications from people senior in the government that 
there is no legal barrier to this happening tomorrow, while 
others have certainly argued to us that there are these 
barriers. But as far as we can tell, there is nothing but 
political will that stands between at least some of the kids 
being released tomorrow, but I do want to let those who live 
and breathe this issue probably give more technical answers on 
it. But I can tell you that it boggles my mind.
    Ms. Bass. You know, I went to one country, I won't mention 
the name of the country, not in Africa, and this issue was the 
same. And one of the things that was happening there was 
financial because a lot of the parents, people in waiting to 
adopt the children, were sending large sums of money to the 
country to maintain the children in orphanages. And it seemed 
as though there was a financial incentive from the people who 
ran the orphanages. I don't know enough about the situation in 
DRC to know if it is a similar thing that there are orphanages 
that people are running and U.S. citizens are supporting.
    Ambassador Thomas-Greenfield. There have been some 
allegations in that area and the fact that new adoptions are 
still continuing to be approved would suggest to us that that 
could be part of the problem because this is a business. And 
there are people who are benefitting financially from this and 
the more children they have in waiting, the more money they are 
getting. So I do see that as a real issue.
    Ms. Bass. And the other side of it, too, is on our side and 
I am hoping that we are doing good jobs in screening who from 
here is adopting because we do have a problem on the other end, 
too, with some of the families here, then getting into trouble.
    I wanted to--you were going to finish?
    Mr. Perriello. I was going to talk about the leverage issue 
with Burundi.
    Ms. Bass. Yes, yes.
    Mr. Perriello. I think there are a couple of categories 
that we can think about. One is the various stakeholders in 
Burundi itself and the second is leverage we have with others 
who can be playing a positive or potentially negative role. And 
we talked earlier about how some of the actors in the region, 
that it is important to make sure that all the neighbors, 
whether that is Rwanda, Tanzania, Angola, DRC, are all being a 
force driving the stakeholders to a peace table. We believe 
that is best done in Kampala, although we would also support 
the African Union's call whether that is in Kampala or in 
Addis.
    Within Burundi right now there are a number of drivers, one 
of which is economic collapse and while our direct aid has been 
suspended and the EU is going through its article 96 procedure, 
and obviously we try to coordinate and work not just with the 
AU, but donor countries. This is a government that is facing 
some real threats and challenges, not just physical security 
threats, but economic crisis.
    We obviously continue to support the UNHCR efforts. I 
visited refugee camps in both Tanzania and Rwanda, camps with 
very tough conditions right now, not because the host 
governments aren't being generous, but because demands on UNHCR 
right now obviously with the Syria refugee crisis and other 
things are so high.
    And so I think there is leverage that we have with various 
actors and one of the things we are trying to do is obviously 
maintain lines of communication and always provide a healthy 
outlet to a peaceful solution while making clear that there 
will be consequences for people both on the government and 
opposition side who try to escalate and we believe that some of 
those can be significant as well as support for other positive 
actors in the EAC and the African Union.
    Ambassador Thomas-Greenfield. If I can just add, I think 
the other leverage is to really put pressure on the region, on 
the EAC, on the AU that has been, I think, moving in a great 
direction, on the U.N. as well, to make sure that all of the 
players are actively involved in trying to find a solution and 
putting pressure on this government. They are feeling the 
economic pressure as Tom said. They are feeling the economic 
pressure from the EU. They are feeling the economic pressure 
from the IFIs who have all pulled out their funding. And they 
are feeling the economic pressure from the private sector. So 
this is tremendous pressure, but it also shows the extent to 
which the President is willing to let the country collapse.
    Ms. Bass. Wow. So in terms of what our direction is now, 
since they already had the election, the pressure and all and 
our leverage is about just making it peaceful, in other words? 
Because I realize that some of his opponents have mysteriously 
died and there have been ongoing attacks. Is that the 
direction?
    Mr. Perriello. The situation in Bujumbura is incredibly 
serious. In some neighborhoods we are almost to a position of 
ungoverned space where there is nightly violence and it is in 
both directions. There are people throwing grenades at police 
officers. Those police officers are going in and in some cases 
murdering entire families. In one case, that was someone with 
an IOM badge that had been shown to folks and the need for 
accountability that has been promised by the government.
    The African Union put clearly the impetus for this crisis 
on the decision to go forward with what they called non-
consensual, non-inclusive elections. We have reports from 
experts, as well as those looking at refugee flows, showing 
that the flow would probably be even higher if not for youth 
militias in the border areas, trying to prevent people from 
crossing so that the refugee crisis does not look as bad to the 
international community. So the situation is extremely serious. 
And in fact, to one of the things Assistant Secretary Thomas-
Greenfield noted in terms of impact on the region, if I can be 
blunt, up until recently, there was a little bit of 
gamesmanship. It felt that people wanted to make this almost a 
proxy between scoring points with some of the neighbors and the 
closer this has gotten to widespread violence, some of those 
countries, I think, are switching to saying hey, let us not 
make this about each other, let us see this as a genuine crisis 
in Burundi that we cannot afford to see take on an ethnic or 
regional component. And so in that regard, you are seeing very 
serious issues.
    However, we have not yet crossed the point of no return and 
we believe along with the African Union and others that the 
only thing that can prevent this from having an even more 
violent end is this inclusive immediate internationally 
mediated dialogue that the AU communique have called for.
    Ms. Bass. Do you think that the goal of that would be new 
elections or the goal of that would be what?
    Mr. Perriello. So one of the things we have emphasized to 
President Museveni and others is that we don't need to solve 
those questions before the talks start, in part because getting 
people to the table is release valve to prevent folks from 
feeling force is the right way to solve this. However, we would 
be the first to admit those are going to be thorny and 
complicated questions. The opposition, at least through the 
CNARED coalition, there are complications of who should 
represent the opposition, initially said we want to guarantee 
that President Nkurunziza essentially immediately steps down 
and there is a transitional government. They have now said they 
would attend talks immediately without preconditions, but no 
doubt their position will involve some element of that, the 
government position will be quite different.
    But the important thing is to get people at the table and 
see whether there is path forward that gets Burundi back on a 
path, that we have to remember for all the very scary situation 
we are in, 15 years of progress, 15 years of progress across 
ethnic divisions, a strong neutral military that is held 
together, some economic progress. Just a year ago, this is not 
the story we were telling about Burundi. And so that is what we 
hope is we can find that table that brings people back to that 
place.
    Ms. Bass. Can you give an update on the situation in the 
DRC and Kabila?
    Mr. Perriello. So the situation in the DRC----
    Ms. Bass. With regard to elections.
    Mr. Perriello. Right. Well, as I said if the Government of 
Burundi already chose to go down what we think was a very 
costly path, the DRC is still at that crossroads.
    Ms. Bass. Right.
    Mr. Perriello. And it seems that there are some decisions 
to be made and certainly there are various moves that have been 
made by the government that would suggest heading in the 
direction of what is called glissement or slippage, but the 
reality is President Kabila has said over and over again I have 
never publicly said that I am going to break the constitution. 
I have never publicly said that I am going to run for a third 
term. We have seen most efforts at getting off a constitutional 
path have been successfully resisted by civil society and the 
opposition. It is a dynamic moment and I would say the next few 
months are going to be crucial. One of the mantras we have had 
is you know we need to think about DRC as a 2015 issue, not a 
2016 issue.
    The decisions, the hope of being able to see this historic 
democratic transition at the end of next year has got to be 
something that is in the next 2 or 3 months, getting this 
agreement from the electoral commission on the calendar, 
bringing people together, etcetera. So the situation, the 
stakes are quite high. They are far higher, obviously just by 
human count than in any other country in the region, but the 
good news is we are still in a place where a peaceful 
democratic transition could happen.
    And I will just say, President Kabila, I think, deserves a 
lot of credit. Here is someone who as a very young head of his 
faction pushed for peace, got elected twice, has developed 
Kinshasa into a modern, very developed city. There is a lot to 
be said of building nascent democratic institutions, of going 
after at least some of the armed groups. And our hope is that 
part of that final legacy will be also to be the first to 
peacefully transfer power in DRC.
    Ms. Bass. Well, then what is your assessment of the 
opponents? Is there organized, stable----
    Mr. Perriello. So a few things. One of the things that is 
very hopeful about DRC is that you see some of the core pillars 
of a strong democracy. You see a relatively free press. You see 
a civil society that is independent of all political parties. 
You see genuine opposition parties. You see a ruling coalition 
that is like a lot of unruly coalitions where even many of the 
key leaders in that party have broken from the President on 
some key votes. So when we think about it, it is not our job to 
figure out who the right candidate is. It is to let Congolese 
voices be heard.
    What is concerning to us and we spoke about earlier is this 
issue about closing political space. There have been some 
dramatic steps taken, whether it is use of violence against 
protesters or surveilling and trumping up charges against civil 
society opponents. These are foundations of whether or not you 
will have a strong democracy.
    President Kabila told me directly he understands that fair 
elections are about the space created in the year before an 
election and not just on election day. And we certainly will 
continue to work with the government on some of those factors.
    Ambassador Thomas-Greenfield. And I would just add that I 
am still hopeful about the DRC. We do have a window of 
opportunity and we have to continue to engage with President 
Kabila and the people around him to get them to do the right 
thing. They are at a fork in the road and they could take the 
right road or they can take the wrong road. But they still have 
a chance to take the right road and we have to keep pushing 
them in that direction.
    Ms. Bass. Good. Well, finally, I just wanted to mention 
that and wanted to thank you, especially Assistant Secretary 
for allowing Anne Richard to come and to speak next week when 
we do one of our policy breakfasts because I am real concerned 
about the refugees. I mean there is an awful lot of attention 
on the Syrian refugees, very appropriately, but before there 
was the mass exodus from Syria, there was also a tremendous 
number of African refugees and I am just concerned that we 
might have lost sight of them. Lost sight of them in two ways. 
One, I don't know what is happening to them in Europe. But two, 
when we make commitments to increase the number of Syrian 
refugees, I think we also need to increase the number of 
refugees from the continent, especially those that are coming 
through Libya, but in general.
    So a number of members signed a letter to Secretary Kerry 
asking for the numbers to be increased and I don't know if 
there is any update on that in that regard, if you wanted to 
comment.
    Ambassador Thomas-Greenfield. I will let Anne, who is going 
to come up and talk to you, give you the details, but I do know 
that the African numbers were increased in the coming year. I 
don't know where they are coming from, but they have increased 
them to 25,000 and I did carry a message from our earlier 
discussion back to the Bureau of Population Migration, and 
Refugees (PRM), so they are aware that you are interested in 
the subject and they are in a better position to discuss it 
with you. But I do think they heard your message.
    Ms. Bass. Good. She will give us the latest update next 
Thursday. Thank you.
    Ambassador Thomas-Greenfield. And I will pass that back to 
her as well.
    Ms. Bass. Okay.
    Mr. Perriello. Let me just add one thing on to that because 
when I was in the camps in Tanzania, they were some of the 
toughest conditions I have seen in an official UNHCR camp in a 
long time. And I think PRM and State deserve credit for pushing 
hard because all the attention had been on the situation in 
Europe. This was a question of trying to get an additional camp 
opened because I think there were 140,000 people in a camp that 
holds 30,000 at the time. And it was a matter of racing to get 
that open before the rainy season. And actually, in this case, 
the Tanzanian Government, particularly President Kikwete, 
deserves a lot of credit for pushing. There was a lot of 
regional resistance out in the west. So not just from the 
dollar figure numbers, but really trying to make sure there is 
attention in these spaces because the conditions are quite 
rough and the people coming over from Burundi now are coming 
over increasingly malnourished. Anecdotally, we are hearing 
increased incidents of gender-based violence. People are 
exiting because people are waiting to leave because of the fear 
of violence at the border. And therefore leaving sometimes in 
more vulnerable conditions.
    Ms. Bass. And I appreciate that. I do just want to be clear 
that I was making reference to the ones crossing the ocean, 
coming into Europe. And I do think that many countries in 
Africa need to be acknowledged for the fact that they have been 
absorbing tens of thousands of refugees, but I remember a few 
months ago when 800 died crossing the Mediterranean.
    Mr. Smith. Thank you. Just a few final questions and of 
course, as my colleague says any additional questions. Thank 
you for your generosity for staying for long.
    Let me just first of all, we did have Anne Richard testify. 
I chair the Commission on Security Cooperation in Europe and we 
had her testify on Tuesday on Syrian refugees and one of the 
biggest takeaways came from the UNHCR Representative Pitterman 
who said that the proximate cause for the mass exodus that has 
occurred is the 30 percent cut in the World Food Programme and 
that people are now to the point that if they don't have food, 
they are leaving. They just don't have food. Other necessities 
are scarce as well. And I am wondering what that cut has done 
to the four countries in the Great Lakes region, if you might 
want to speak to that. Because it seems to be catastrophic and 
they are doing it, obviously, the World Food Programme is 
trying to do a triage and figure out where do they put a 
dwindling number of monies.
    And what also came across, and this was, again, from the 
UNHCR representative, is that they have only gotten 42 percent 
of their appeal for the Syrian refugees and the crisis in 
general, U.N., and that they are notoriously low on all of 
their appeals and that there are a lot of laggards who promise 
and never come through, but again, how does that affect the 
refugee situation and people who are at risk?
    Let me also ask you with regards to the Scaling Up 
Nutrition program which we have had hearings on and we had 
several hearings on, as a matter of fact. I have introduced a 
bill called the Global Food Security Act which puts a heavy 
emphasis on the first 1,000 days of life, from conception to 
the second birthday, as being the all-important time to get it 
right for that child. Of course, you want to see nutrition and 
good supplementation for a lifetime, but that is where 
cognitive capabilities are either won or lost. That is where 
immune systems are built or not built and it mitigates, if not 
ends, stunting. And all four of the countries, Burundi in 2013, 
DRC in 2013, Rwanda in 2011, Uganda in 2011, all signed up for 
the Scaling Up Nutrition. And I wonder if you have any sense, 
does that come up in your meetings? Do we push it as a way? 
Because it not only makes sure that that unborn child or 
newborn child and that child as he or she matriculates into 
adulthood are healthier, but it has an unbelievably positive 
impact on maternal health and the woman and child or children, 
if it is twins, are that much healthier. Your sense on how that 
is going, particularly in war-ravaged Burundi where obviously 
these programs sometimes are short-circuited.
    And finally, on the issue of trafficking, I am chairing a 
hearing on November 4 on trafficking, the TIP Report. I was the 
prime sponsor of the Trafficking Victims Protection Act, and 
frankly, found some flaws in this year's report which are not 
reflected in the narrative, but are reflected in the 
designations. I don't think any of the four countries that we 
are considering today were wrongly designated. Burundi is Tier 
3. DRC is Tier 2 Watch List. Rwanda and Uganda are Tier 2.
    But the Tier 3, I am wondering especially, Mr. Perriello, 
how often does that issue come up? Do you get support not only 
from the Embassy and the designated people at our Embassies 
that deal with TIP issues, but does the TIP office itself 
provide you with updates and guidance? And what has been the 
response from the governments in question? Because it seems to 
me sex and labor trafficking are among the most horrific human 
rights abuses on the face of the earth. Burundi is Tier 3 for 
both sex and labor designations and I just wonder if you might 
want to elaborate on how that plays into your efforts, both of 
your efforts in these countries?
    Ambassador Thomas-Greenfield. Let me start with the 
questions related to refugees and the impact of WFP's 
decreases. It is not in my portfolio, but it affects my 
portfolio. If affects the people of Africa. And it is across 
the board. It is not just in the four countries in the Great 
Lakes. We are seeing the impact in the refugee camps in Kenya. 
We are seeing the impact in the refugees camps in Ethiopia. And 
then worse, we are seeing a huge, huge impact on the Ethiopian 
population in terms of the possibility of a famine. So this is 
a very, very serious issue for us. It has a little bit to do 
with climate change, but it also has a lot to do with politics. 
It has a lot to do with political stability. It has a lot to do 
with government policies. And this is where I think we can make 
a difference in terms of getting governments to develop 
policies that target their communities and place agriculture on 
the top of their agenda in terms of building the capacity of 
people to produce their own food so that they are not dependent 
upon food aid.
    I don't have anything on the malnutrition issue that you 
raise. If you don't mind, I would love to get back to you on 
that. That has not come up in any of my meetings with any of 
the governments. But I am sure my USAID colleagues hear it 
regularly.
    Mr. Smith. But again, if you could make it part of that. It 
seems to me that people sign up robustly with all kinds of good 
intentions which for whatever reason, different priorities, 
maybe apathy, and this program gets put on a shelf at least 
partially. And again, I don't know of a single program that I 
have ever seen that has done more and can do more to enhance 
the life, the well-being, and the mortality, the actual 
survival of individuals, children, babies, unborn babies, and 
then their mothers than this one.
    Ambassador Thomas-Greenfield. And I see this in terms of a 
political issue as well. And then on TIP, I had 50 meetings in 
New York during the ``speed meeting'' exercise that we went 
through and for every single country that was downgraded or not 
upgraded on TIP, I raised this as an issue. I will use the 
example of Comoros where there was an issue and they wanted to 
talk about how to address it and what they needed to do to 
address it so that they don't get downgraded even further. So 
we have found among African governments while they push back, 
they also take it very, very seriously because they know that 
we take it seriously.
    So again, it is not always the best of situations, but I 
think governments are more and more taking it seriously. We 
hear a lot of arguments that this is our culture, you don't 
understand. It is not that we are trafficking in children. We 
are taking children from the village so that we can educate 
them, but you see no signs of the education.
    So we do have this discussion on a regular basis with 
governments. And we work very closely with the TIP office to 
look at how we can help governments address this because our 
ultimate goal is to stop trafficking and to help governments 
address the issue and hold people accountable.
    Mr. Perriello. I would echo everything she said on TIP. I 
can't really be objective about it since I have been a big 
supporter of the program when I was on your side of things, but 
it certainly comes up with great frequency.
    On your point of UNHCR and the 42 percent pledge, I will 
just note that at the time that I was in the camps in Tanzania 
they had only gotten 17 percent of their pledge for Burundian 
refugees. That has gone up a little bit with some help from the 
United States.
    One thing I will just say in general with a number of 
things you are saying, and this takes me back a little bit to 
my previous job running Quadrennial Diplomacy and Development 
Review, is the attempt to use metrics in all of these 
situations. So whether it is WFP cuts or other things, I think 
we are trying to get better at some predictive analysis of 
being able to see when there is a drought in country X, how 
that is going to be affecting things 6 months, 12 months, 18 
months out, and I think there is a lot that is useful in coming 
together.
    One of the reasons we are still where we are in Burundi, I 
believe, is not just 15 years of investment on post-conflict 
transition, on reconciliation, on other things, but the 
Atrocity Prevention Board and other efforts flagged this a year 
out, 1\1/2\ years out, as meeting a bunch of indicators. It is 
where we are with DRC now. So I think all of this is part of 
that move.
    And then last of all, I think to the point of some of the 
programs you are talking about, it might just be a moment to 
say we have spent 20 years as a country greatly invested in 
this region in terms of humanitarian support, as well as 
development, as well as security support. And as Linda 
mentioned earlier, underneath a lot of this is good governance. 
And we have done so much to get up to this point where there is 
a chance to turn the page where the dynamics are primarily 
determined by the region's future and not its past and some of 
that is the personalities involved and the dynamics. But 
underneath so many of these programs is a question of good 
governance.
    Even with people who are desperately poor in Burundi, we 
cannot send that money to a government that is using it, 
funneling it in a different direction or not using it well or 
not being transparent. So that is why I think we come back to 
this idea that I think President Obama, with support from the 
Hill, has had a really good policy in focusing on constitutions 
mattering, rule of law mattering, term limits mattering. We are 
offering our advice to our countries in the region and we 
believe that his is an opportunity to make a real difference in 
those areas.
    Mr. Smith. One last thought before you leave, Ms. Bass, 
CRS's Sean Callahan testified on Tuesday and made a very 
important point that I have heard many times. You, I know I am 
sure, have heard it many times before, too. And that is the 
ability of faith-based groups, not only to be extraordinarily 
flexible and get more push, more outcome for the buck, but also 
the entre, the accessibility, the ability to do something in 
regions or places of conflict that perhaps other people 
wouldn't be able to do it because it happens to be a priest or 
a pastor of some kind or a bishop.
    And I am wondering if you are finding in Burundi, for 
example, or any of these other countries, if the faith-based 
groups have placed a significant role and perhaps there is even 
a reason or cause for an enhanced role to make sure that the 
food, the medicines, whatever it might be gets from us and from 
other donors and the government and U.N., UNICEF, whatever it 
might be, to the intended recipient.
    Ambassador Thomas-Greenfield. I would say the faith-based 
NGOs, assistance groups, have been extraordinary and very, very 
supportive across the board in Africa. In the case of Burundi, 
you have a President who claims to be a believer. He preaches 
his beliefs and we need more voices in the faith-based 
community here in the United States to talk to him, to let him 
know that some of the things that he is doing are not 
acceptable and that it causes us to doubt his faith. People are 
dying, people are being killed and it is happening on his watch 
and he has a lot of friends here who are supportive of him and 
we would encourage that he gets some messages from that 
community to do the right thing for the people of Burundi.
    Mr. Smith. Mr. Clawson.
    Mr. Clawson. No one likes the man or woman that comes in 
late and then talks a whole lot, right? Not great. Not good 
behavior. We always get multi-scheduled around here. You all 
know that already, right? So the fact that we come late or some 
folks, I don't know if Mark was here or not, that please don't 
take that as a personal reflection.
    Mr. Smith. As a former member, I am sure Tom understands 
that completely.
    Mr. Clawson. You know the deal, right? And you know, you 
all are competing with Secretary Clinton, too, so you have 
tough competition today.
    Mr. Perriello. We were sure all those cameras were for this 
hearing.
    Mr. Clawson. You are a smart guy. I wanted to make sure 
that I showed up for several reasons. Number one, I have a lot 
of respect for the chairman and the ranking member and you 
learn that this is a ``got you'' environment. If you ever say 
anything wrong, they got you, right? And I think this 
subcommittee has been one place where there is a little less of 
that. And they are trying to pay attention to an area of the 
world where in my view clearly we have not historically paid 
enough attention. So first thing is to show respect there.
    Secondly, appreciation for what you all do to toil in and 
area or dedicated to an area that is not glamorous, but sure 
needs our attention as well. And to the extent that we can, 
resources which leads me to the third point and that is 
anything that I can do. This region of the world, your 
intersection of lots of humanitarian problems, ecological 
problems, and a big watershed all at the same place, right? And 
so we can't forget about it. And if I take too much more time 
after not being here for almost 1\1/2\ hours, I think it would 
be a little bit impolite. So with that, I express my 
appreciation to what you all are doing. And I say to the chair 
anything that I can do in this effort, of course, we stand 
ready. I yield back.
    Mr. Smith. Thank you, Mr. Clawson. Anything else you would 
like to say before we close?
    Mr. Perriello. I just want to add one quick note which was 
to your point about faith-based groups. I obviously agree, but 
the other group that I think can play a very constructive role 
in the region is the private sector. And in addition to looking 
at these democratic transitions, there is a tremendous amount 
of entrepreneurial activity for the small agricultural 
entrepreneur as well as for very large corporations. And one of 
the things we have heard a lot from the private sector is we 
need to get through these democratic transitions, get through 
that stability threshold to be able to really see the economic 
opportunity for folks. So that is another sector we are just 
engaging I wanted to mention.
    Mr. Clawson. Could I jump in real quick? Spending my whole 
adult life in the private sector in the multi-national 
environment, we did business in South Africa, but nowhere else 
because we were worried about private property rights. And 
private business can always help in under-developed area 
because particularly if they have a little bit of enlightenment 
at the top so that all stakeholders mean something including 
employees, communities, etcetera. But you can never go to 
shareholders and say you may lose everything here because they 
don't respect, in this particular country or region, private 
property rights, right?
    I know you are with me on this. Anything I can do in that 
regard, any help, if we can make the case for one of these 
countries that private property rights are respected, then the 
idea of exterior investment for the benefit of all stakeholders 
becomes lots easier to make.
    For those of you in the audience that are from these 
countries, it scares private investors even for an export-based 
investment. It scares us to look at something like that because 
we are not sure that our private property rights, meaning our 
investment, and therefore our shareholders, would be protected 
if we set it up. I think there are plenty of investors that 
don't mind sharing with all stakeholders, including community 
and labor, folks that work. But you can't lose your investment. 
Does that make sense? So anything--we can take this offline, 
but any time I can help you all, I am on Chris' subcommittee 
here. Any time I can help in that regard, very, very interested 
in doing so.
    Ambassador Thomas-Greenfield. That is a strong message to 
give any time you have any contact with African leaders, they 
all want American investors. I hear it on a regular basis. I 
have participated in a meeting by the Initiative for Global 
Development's Frontier 100 Forum on business leadership in 
Africa that Secretary Albright and Colin Powell chaired 
yesterday. We talked about what would encourage American 
investors to go into Africa and what discourages them. And that 
point is the biggest point.
    Mr. Clawson. This is the biggest point. And without this, 
the idea that Africa can self-develop in my mind is a long 
putt. And our intentions can be as wonderful as we want them to 
be. In our facility in South Africa, the government told us 
that we didn't have any choice but to sell them a certain 
percentage of the equity. Now I can do that as CEO of the 
company, but imagine if I tell my shareholders I am going to 
build a second factory in that country. I would get laughed out 
of the board room, right?
    This message, I think you and I are in violent agreement 
here, any time I can help you make that pitch because that will 
attract investment because there is a lot of good about these 
areas in terms of investment prospects as well I think. Thank 
you.
    Mr. Smith. Thank you so very much for your testimony, your 
leadership, and look forward to working with you going forward. 
The hearing is adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
